IN THE SUPREME COURT OF THE UNITED STATES
DOE, JANE, A MINOR CHILD WHO IS UNBORN, BY AND
THROUGH HER FATHER AND NEXT FRIEND, JOHN DOE
Petitioner
vs.

No:

20-0093

MIKE HUNTER, ATTORNEY GENERAL OF OKLAHOMA,
ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
August 04, 2020
cc:
KRISTINE LEE BROWN
8700 E JEFFERSON AVENUE
#371703
DENVER , CO 80237

